 DEPARTMENT OF HOMELAND SECURITY
    Office of Inspector General


     Annual Review of Mission Performance 

      United States Coast Guard (FY 2006) 





OIG-08-30                 February 2008
                            (Revised)
                                                                       Office of Inspector General

                                                                       U.S. Department of Homeland Security
                                                                       Washington, DC 20528




                                      February 28, 2008


                                             Preface

The Department of Homeland Security (DHS) Office of Inspector General (OIG) was established by
the Homeland Security Act of 2002 (Public Law 107-296) by amendment to the Inspector General
Act of 1978. This is one of a series of audit, inspection, and special reports prepared as part of our
oversight responsibilities to promote economy, efficiency, and effectiveness within the department.

This report presents the annual review of the U.S. Coast Guard’s mission performance, as required
by the Homeland Security Act of 2002, Public Law 107-296, November 25, 2002. It is based on
interviews with employees and officials of relevant agencies and institutions, direct observations,
and a review of applicable documents.

The analysis herein has been developed to the best knowledge available to our office, and has been
discussed in draft with those responsible for implementation. It is our hope that this report will
result in more effective, efficient, and economical operations. We express our appreciation to all of
those who contributed to the preparation of this report.




                                             Richard L. Skinner 

                                             Inspector General 

Table of Contents/Abbreviations 


Executive Summary ...............................................................................................................................1 

Background ............................................................................................................................................2 

Results of Review ................................................................................................................................. 3

   Growth in Total Resource Hours Has Leveled Off ...........................................................................3 

   Coast Guard Experienced Difficulty Maintaining Readiness and Operational 

      Capability of Marine Assets..........................................................................................................4 

   Mission Performance Leaves Room For Improvement…………….................................................5 

   Barriers to Improving Performance Still Exist ..................................................................................6 

   Performance Measures Are Not Always Measurable or Clear..........................................................8 

Conclusion .............................................................................................................................................9 



Appendices

  Appendix A:            Non-Homeland Security Missions as Reported by the Coast Guard .......................10 

  Appendix B:            Homeland Security Missions as Reported by the Coast Guard ................................20 

  Appendix C:            Purpose, Scope, and Methodology ...........................................................................28 

  Appendix D:            Management Comments to the Draft Report ............................................................29 

  Appendix E:            Major Contributors to this Report ............................................................................32 

  Appendix F:            Report Distribution ..................................................................................................33 



Abbreviations
    ATON                     Aids-to-Navigation            

    C3                       Command, Control, and Communication 

    DR                       Defense Readiness                 

    DHS                      Department of Homeland Security 

    EEZ                      Exclusive Economic Zone 

    FY                       Fiscal Year              

    GAO                      Government Accountability Office 

    LMR                      Living Marine Resources 

    OIG                      Office of Inspector General 

    OMB                      Office of Management and Budget 

    P.L.                     Public Law             

    PTFMC                    Percent Time Fully Mission Capable 

    PWCS                     Ports, Waterways, and Coastal Security 

    SAR                      Search and Rescue               

OIG 

Department of Homeland Security
Office of Inspector General

Executive Summary
                This report presents our annual review of the U.S. Coast Guard’s mission
                performance as required by the Homeland Security Act of 2002. To address
                the Act’s requirements, we reviewed the Coast Guard’s reported resource
                hours used to perform the various homeland security and non-homeland
                security missions, as well as reported performance goals and results, from FY
                2001 through FY 2006.

                Although we did not verify the accuracy of Coast Guard data, this data shows
                that total resource hours have increased in every period from the baseline of
                pre-September 11, 2001, through FY 2005 and then decreased slightly (less
                than one percent) in FY 2006. The Coast Guard’s mission performance leaves
                room for improvement because it did not meet performance goals for three of
                its missions – Undocumented Migrant Interdiction, Defense Readiness, and
                Marine Safety. In addition, the Coast Guard missed its target performance
                goals by less than one percent for three non-homeland security missions: Search
                and Rescue, Aids-to-Navigation, and Living Marine Resources. The Coast
                Guard’s performance measures are not always measurable or clear. The Coast
                Guard acknowledged there are limitations to some of the measures it uses and is
                working to improve several metrics to better reflect actual performance.

                According to Coast Guard officials, the Coast Guard experienced difficulty
                maintaining readiness and operational capability of aging marine assets. The
                Coast Guard also faces major barriers to improving or sustaining its mission
                performance, including major asset decommissioning and displacement,
                limited and finite assets to respond to crises, and challenges with the delivery
                of key Deepwater assets.

                The Coast Guard concurred with our draft report regarding: growth in
                resource hours, difficulty maintaining readiness and operational capability of
                marine assets, and existing barriers to improving performance. The Coast
                Guard concurred in part to our conclusion that performance measures are not
                always measurable or clear. In contrast, the Coast Guard did not concur with
                our conclusion that mission performance leaves room for improvement. The
                Coast Guard’s comments to our report are incorporated into the body of this
                report, as appropriate, and are included as Appendix D.

                        Annual Review of Coast Guard Mission Performance

                                            Page 1
Background
                             Coast Guard Missions. Section 888 of the Homeland Security Act of 20021
                             defines the Coast Guard’s missions as either non-homeland security missions
                             or homeland security missions as follows:

                             Non-Homeland Security Missions
                                • Search and Rescue (SAR)
                                • Aids-to-Navigation (ATON)
                                • Ice Operations
                                • Living Marine Resources (LMR)
                                • Marine Safety
                                • Marine Environmental Protection

                             Homeland Security Missions
                               • Ports, Waterways, and Coastal Security (PWCS)
                               • Drug Interdiction
                               • Undocumented Migrant Interdiction
                               • Defense Readiness
                               • Other Law Enforcement

                             In addition, Section 888 of the Homeland Security Act of 2002 prohibits the
                             Secretary from substantially or significantly reducing the missions of the
                             Coast Guard or the Coast Guard’s capability to perform those missions,
                             subsequent to transfer of the Coast Guard to DHS.

                             Resource Hours. The Coast Guard uses resource hours – generally the
                             number of flight hours (for aircraft) and underway hours (for boats and
                             cutters) dedicated to a specific mission – to determine the amount of time that
                             is expended in each of its non-homeland security and homeland security
                             mission areas. During our review, we analyzed the total number of resource
                             hours reported by the Coast Guard prior to September 11, 2001,2 through FY
                             2006. We did not, however, verify the resource hour data reported by the
                             Coast Guard, nor did we validate that the Coast Guard had accurately
                             classified resource hour use for each mission. We assessed total resource
                             hours for the 11 individual missions in order to identify the changes in each.

                             Performance Goals and Results. The Coast Guard uses outcome-oriented
                             performance goals and measures to assess results of each Coast Guard mission

1
  Public Law 107-296, November 25, 2002, Section 888 directs the Inspector General to conduct an annual review that
assesses the performance of all Coast Guard missions, with a particular emphasis on non-homeland security missions.
2
  The Coast Guard-calculated baseline (annual average based on eight fiscal year quarters preceding September 11, 2001) from which
changes in resource hours since the September 11, 2001, attacks could be estimated.

                                        Annual Review of Coast Guard Mission Performance 


                                                               Page 2

                           in achieving current year goals, and to report past performance. For example,
                           the performance goal for Drug Interdiction is to reduce the flow of illegal
                           drugs entering the U.S. via non-commercial maritime shipping sources, and its
                           corresponding performance measure is the removal rate for cocaine that is
                           shipped via non-commercial maritime means. Performance results provide
                           information that enables the President, Department, Congress, and the public
                           to assess the effectiveness of the Coast Guard’s mission performance and
                           stewardship of resources. Managers and executives use performance results
                           to help gauge performance against resources appropriated by Congress for
                           each Coast Guard mission, which are aligned with the Department of
                           Homeland Security’s strategic goals. Performance measures are also used to
                           monitor actions, such as the number of incursions into the U.S. Exclusive
                           Economic Zone, and enable executives to make decisions regarding future
                           priorities. We did not verify the accuracy of the reported performance
                           measure results.

Results of Review
     Growth in Total Resource Hours Has Leveled Off
                           Total Coast Guard reported resource hours have significantly increased since
                           the baseline period, with increases in every period through FY 2005 and then
                           a decrease by less than one percent in 2006, as depicted in the chart below.
                           Some of the FY 2006 decrease in resource hours is the result of the Coast
                           Guard’s decision to permanently withdraw eight 123’ Island Class Patrol
                           Boats (123’ patrol boats) from service on November 30, 2006, due to
                           structural design and performance problems.

                                                                    Re sou rce Hou rs-All M issio ns

                                900000
                                800000
                                700000
               Resource Hours




                                600000
                                500000                                                                  Homeland Security Missions
                                400000                                                                  Non-Homeland Security Missions
                                300000
                                200000
                                100000
                                     0
                                         baseline   2001   2002       2003         2004   2005   2006
                                                                  F iscal Y e ar




                           Source: U.S. Coast Guard Reported Data


                                          Annual Review of Coast Guard Mission Performance 


                                                                   Page 3

                        Prior to FY 2001, the non-homeland security missions represented the largest
                        percentage of resource hours within the Coast Guard. Following September
                        11, 2001, the Coast Guard dedicated a larger percentage of resource hours to
                        homeland security missions than for non-homeland security missions. After
                        an initial drop in non-homeland security resource hours in FY 2002, the non-
                        homeland resource hours increased through FY 2006 bringing total non-
                        homeland security hours to approximately 16% above baseline levels. The
                        percentage of resource hours dedicated to homeland security grew until FY
                        2004 and decreased marginally in FY 2005 and again in FY 2006.

                        Assessments of Coast Guard reported resource hours for all missions, and
                        individual non-homeland security missions and homeland security missions,
                        are included in Appendices A and B.

        Coast Guard Experienced Difficulty Maintaining Readiness and
        Operational Capability of Marine Assets
                        A Coast Guard official testified that the agency experienced difficulty in
                        maintaining the readiness and operational capability of its cutter fleets,
                        including the 270’ (commissioned between 1983 and 1991), and 210’
                        (commissioned between 1964 and 1969). These vessels have, on average,
                        been in service for 30 years, are nearing the end of their useful service life,
                        and are increasingly expensive to repair. Further, in September 2006, the US
                        Government Accountability Office (GAO) reported that as ATON assets
                        continue to age, their condition is declining, though not precipitously.3 As a
                        result, we conclude the Coast Guard may experience difficulty sustaining
                        resource hours necessary to meet ever-increasing homeland security mission
                        requirements and its traditional non-homeland security mission requirements.

                        The Coast Guard measures the time that its cutters, icebreakers, patrol boats,
                        tugs, and buoy tenders are fully mission capable, known as Percent Time
                        Fully Mission Capable (PTFMC). The PTFMC measures the absence of
                        deficiencies in mission critical equipment, which causes a major degradation
                        or loss of a primary mission. For example, the 13 - 270’ medium endurance
                        cutters were fully mission capable 51% of the time during FY 2006. Table 1,
                        on the following page, shows the Coast Guard’s calculation of the percentage
                        of time each asset class of cutters was fully mission capable for FY 2006.




3
 GAO-06-979, Coast Guard Condition of Some Aids-to-Navigation and Domestic Icebreaking Vessels Has Declined;
Effect on Mission Performance Appears Mixed.

                                  Annual Review of Coast Guard Mission Performance 


                                                       Page 4

          Table 1. Percent Time Fully Mission Capable as Reported by the Coast
          Guard, FY 2006

                                                                               Percent of Time
                                                                    No. of      Fully Mission
                           Coast Guard Cutters                      Assets        Capable
                                                                                  FY 2006
            378’ High Endurance Cutter (WHEC)                            12          43%
            282’ Medium Endurance Cutter (WMEC)                           1          56%
            270’ Medium Endurance Cutter (WMEC)                          13          51%
            213’ Medium Endurance Cutter (WMEC)                           1         64%
            210’ Medium Endurance Cutter (WMEC)                          14         64%
            420’ Icebreaker (WAGB)                                        1         80%
            399’ Polar Class Icebreaker (WAGB)                            2         12%
            123’ Patrol Boat (WPB)                                        8         16%
            110’ Patrol Boat (WPB)                                       41         57%
            87’ Coastal Patrol Boat (WPB)                                65         70%
            179’ Patrol Coastal Boat (WPC)                                5         67%
            240’ Seagoing Buoy Tender/Icebreaker (WLBB)                   1          0%
            225’ Seagoing Buoy Tender (WLB)                              16         52%
            175’ Coastal Buoy Tender (WLM)                               14         75%
            160’ Inland Construction Tender (WLIC)                        4         41%
            100’ Inland Construction Tender (WLIC)                        1         93%
            75’ Inland Construction Tender (WLIC)                         8         72%
            100’ Inland Buoy Tender (WLI)                                 2         63%
            65’ Inland Buoy Tender (WLI)                                  3         93%
            140’ Icebreaking Tug (WTGB)                                   9         77%
            75’ River Buoy Tender (WLR)                                  12         61%
            65’ River Buoy Tender (WLR)                                   6         91%
            65’ Small Harbor Tug (WYTL)                                  11         67%
            Total                                                        250

             Source: U.S. Coast Guard


Mission Performance Leaves Room for Improvement
          The Coast Guard reported it is not meeting all of its performance goals despite
          a substantial increase in resource hours since FY 2001. For FY 2006 the
          Coast Guard has been more successful in meeting its goals for its homeland
          security missions, meeting three of five (60%) goals, compared to meeting
          two of six (33%) goals for non-homeland security missions. However, three
          of the four performance measures for non-homeland security missions, where
          goals were not achieved, were statistically insignificant. For example, the
          Coast Guard reported for FY 2006, it saved 85.27% of mariner’s lives where
          the goal was 86%; there were 1,765 collisions, allisions, and groundings for

                    Annual Review of Coast Guard Mission Performance 


                                         Page 5

           the ATON mission, although the goal was 1,748 or fewer; and finally the
           Coast Guard reported 96.6% of fisherman were complying with regulations
           where the goal was 97%.

           Of the 11 Coast Guard missions (six non-homeland security and five
           homeland security), the Coast Guard reported it met its performance goal for
           all six years surveyed for just one mission: Marine Environmental Protection.
           The Coast Guard first established a performance measure for the Marine
           Safety mission in FY 2003 and met its goal in three out of four years since a
           goal was established. In addition, the Coast Guard only developed a risk-
           based performance measure for the Ports, Waterways, and Coastal Security
           mission in FY 2005 and met its goal in 2006. Six of the remaining missions
           did not consistently meet the goals during the same six-year period, including
           LMR, SAR, Ice Operations, Drug Interdiction, Undocumented Migrant
           Interdiction and Other Law Enforcement. Lastly, Defense Readiness has not
           met its goals for any of the six years.

           According to Coast Guard officials, the failure of the Coast Guard to meet a
           performance goal is not necessarily indicative of underlying performance
           problems. When higher priority threats arise, the Coast Guard shifts
           resources. As a result, missions that “donate” resources to deal with higher-
           priorities can temporarily experience lower performance. We agree this may
           impact mission performance for periods of time, such as the impact of the
           removal of eight 123’ cutters on the Undocumented Migrant Interdiction
           mission and the resultant shifting of assets to cover for these removed cutters.
           However, the Coast Guard establishes the goals they want to achieve and they
           need to work to achieve these goals.

           Assessments of reported performance goals and results for all Coast Guard
           missions, and individual non-homeland security missions and homeland
           security missions, are included in Appendices A and B.

Barriers to Improving Performance Still Exist
           The Coast Guard faces three major barriers to improving or sustaining its
           mission performance:

              1. Major asset decommissioning and displacement,
              2. Limited and finite assets to respond to crises, and
              3. Challenges with key Deepwater Assets.




                   Annual Review of Coast Guard Mission Performance 


                                        Page 6

                          Major Asset Decommissioning and Displacement

                          The slight decrease in total Coast Guard reported resource hours between FY
                          2005 and FY 2006 can be somewhat attributed to the poor performance of the
                          123’ patrol boats. Per a Coast Guard official, the November 2006 removal of
                          these assets from service will impede missions, including the Coast Guard’s
                          Undocumented Migrant Interdiction mission. As a result, the Coast Guard is
                          currently short 25,000 patrol boat mission hours. To compensate for this
                          capability gap, for FY 2007, the Coast Guard reports it plans to shift 87’ patrol
                          boats and buoy tenders to South Florida on an as needed basis and multi-crew
                          some 110’ patrol boats.

                          Limited and Finite Assets To Respond To Crises

                          The Coast Guard has a limited and finite number of assets, and therefore
                          available resource hours, to respond to an extended crisis. With no additional
                          reserve assets for use in catastrophic situations, the Coast Guard must use
                          resource hours normally dedicated to other missions to respond to crises and
                          to meet often changing mission priorities. One of the reasons the Coast Guard
                          has not been able to meet its goals for asset availability is the Deepwater
                          acquisitions program, which has continued to encounter difficulties, most
                          recently in the acquisition of the Fast Response Cutters. These cutters are
                          scheduled to replace the Coast Guard’s aging patrol boat fleet. Also the
                          Rescue 21 program4 has been plagued by delays, technical problems, cost
                          escalation, and a delay in full implementation, which has slipped by five
                          years.

                          Challenges with Key Deepwater Assets

                          While some Deepwater assets have been delivered, others have encountered
                          significant problems that have created a number of challenges for the Coast
                          Guard. These challenges include delivery delays and loss of operational
                          capabilities. For example, the Coast Guard is assessing alternatives as a result
                          of the delays with the Vertical Unmanned Aerial Vehicle. In addition, design
                          problems associated with the National Security Cutter and the Fast Response
                          Cutter will potentially hinder future operations. The Coast Guard is taking a
                          variety of actions to address these challenges, such as relying more heavily on
                          existing assets, making plans to purchase off-the-shelf assets, and planning
                          corrective structural modifications.



4
 Rescue 21 is a program that will assist the Coast Guard in carrying out the SAR and all the other missions the Coast
Guard performs by providing an advanced command, control, and communications (C3) system. According to Coast
Guard officials, this new C3 system will be more robust, more reliable, and more capable than the current system.

                                     Annual Review of Coast Guard Mission Performance 


                                                          Page 7

        Performance Measures Are Not Always Measurable or Clear
                        Performance measures can be weakened when they involve the Coast Guard’s
                        reliance on data or estimates received from outside sources. However, the
                        Coast Guard presumes that government-owned data is of sufficient rigor to be
                        used in drawing performance conclusions. For example, both states and the
                        Army Corp of Engineers provide data in support of the Coast Guard’s Marine
                        Safety mission performance. However, the Coast Guard does not test the
                        reliability of this data because it considers it a fair presumption that
                        government-owned data is of sufficient rigor to be used by other agencies.
                        Also, estimates based on intelligence data and economic conditions of
                        Caribbean countries affect performance measures for the Undocumented
                        Migrant Interdiction mission. For this reason, the Coast Guard is changing its
                        performance measure in FY 2007 for the Undocumented Migrant Interdiction
                        mission.

                        Performance measures can also help managers evaluate related performance.
                        For example, the ATON performance measure is based on the five-year average
                        of collisions, allisions, and groundings, which is also related to Marine Safety.
                        Because research has shown the majority of maritime accidents occur as a result
                        of human error, a more accurate measure of ATON performance may be the
                        percentage of fully operational and properly positioned aids-to-navigation.

                        In August 2006, the GAO reported that although Coast Guard performance
                        measures are generally sound, the data is not always clear.5 For example,
                        GAO reported for performance measures related to domestic ice-breaking
                        operations, the Coast Guard measures success based on the annual number of
                        days waterways are closed because of ice. However, this measure actually
                        reflects closures of only one critical waterway – St. Mary’s River, a
                        connecting channel between Lakes Superior and Huron, which acts as a
                        thoroughfare for international shipping. As a result, the measure could
                        confuse users and might cause them to conclude that performance is better or
                        worse than it actually is. The Coast Guard is working to resolve these
                        inconsistencies in measurement reporting, but notes that these inconsistencies
                        do not substantially impact the level of performance asserted by the Coast
                        Guard.

                        Some of the performance measures that the Coast Guard has in place, and the
                        data behind them, may not always be comprehensive, practical, or accurate.
                        The Coast Guard’s actual performance and the standards by which some of
                        these are based may not present an accurate account of whether the Coast
                        Guard is performing its missions successfully. The Coast Guard acknowledged
5
  GAO-06-816, Coast Guard Non-Homeland Security Performance Measures Are Generally Sound, but Opportunities
for Improvement Exist.

                                 Annual Review of Coast Guard Mission Performance 


                                                      Page 8

             there are limitations to some of the measures it uses, and is working with DHS
             and Office of Management and Budget (OMB) to improve several metrics to
             better reflect actual performance.

Conclusion
             The aging and deteriorating fleet of cutters and patrol boats will continue to
             negatively affect the Coast Guard’s ability to meet its mission performance
             goals. As a result of challenges with the Deepwater acquisition program, new
             assets have either been delayed or cancelled. The Coast Guard recognizes these
             challenges and is taking action to strengthen the Deepwater acquisition program
             and its technical and management oversight. Although we have not tested the
             actions the Coast Guard is taking in the Deepwater acquisitions program, it
             appears, when fully implemented, these actions will put the Coast Guard on
             track to restoring its readiness to perform its non-homeland and homeland
             security mission in a timely, effective, safe, and efficient manner.




                     Annual Review of Coast Guard Mission Performance 


                                          Page 9

Appendix A
Non-Homeland Security Missions


      Non-Homeland Security Resource Hours as Reported by the Coast Guard

                  After an initial drop in non-homeland security resource hours in FY 2002, the
                  total non-homeland resource hours have increased through 2006, exceeding
                  the baseline by 16%.

                                                     N o n H o m e la n d S e c u rity R e s o u rc e H o u rs

                                      4 0 0 ,0 0 0
                                      3 5 0 ,0 0 0
                     Resource Hours


                                      3 0 0 ,0 0 0
                                      2 5 0 ,0 0 0
                                      2 0 0 ,0 0 0
                                      1 5 0 ,0 0 0
                                      1 0 0 ,0 0 0
                                        5 0 ,0 0 0
                                                 0
                                                                2001 2002         2003 2004     2005 2006
                                                      e
                                                     lin
                                                se
                                             Ba




                                                                              F isca l Ye a r


                   Source: U.S. Coast Guard Reported Data

                  After the increase in FY 2001, the total resource hours dedicated to non-
                  homeland security missions decreased through FY 2003, then increased in FY
                  2004, and continued through FY 2006. The significant increase in resource
                  hours from FY 2004 to FY 2005 is largely attributed to major SAR efforts in
                  the aftermath of Hurricane Katrina. In FY 2006, non-homeland security hours
                  represented approximately 45% of resource hours.

                  Performance Goals and Results. The Coast Guard has been more successful
                  in meeting its goals for its traditional non-homeland security missions. The
                  Coast Guard met its goal for every year during the period of FY 2001 through
                  FY 2006 for the Marine Environmental Protection mission. The Coast Guard
                  had similar success with its ATON mission where it met its goal for five out
                  of the six years (FYs 2001-2005). The Coast Guard did not meet its FY 2006
                  performance goals in four of six non-homeland security mission areas.
                  However for the SAR, ATON, and LMR missions, the performance shortfalls
                  were insignificant; the Coast Guard failed to meet its goals by less than a
                  percentage point in these areas.

                  The Coast Guard’s ability to meet performance goals for its Marine Safety
                  mission decreased from its baseline of an average 1,317 down to an average of
                  1,277 in FY 2005. However, this average increased to 1,400 in FY 2006. The
                  Coast Guard reported that recreational deaths and injuries have been added

                                         Annual Review of Coast Guard Mission Performance 


                                                                   Page 10

Appendix A
Non-Homeland Security Missions


                  into the performance measure for the Coast Guard’s successful
                  accomplishment of its Marine Safety mission, which could explain why the
                  average has increased in FY 2006. The Coast Guard also reported
                  implementation of a proposed towing vessel inspection regulation should help
                  decrease the five-year average. Yet, the towing vessel inspection regulations
                  have not been promulgated.

                  Specific performance goals and results for each of the non-homeland security
                  missions from FY 2001 through FY 2006 are summarized in the Table 2.




                          Annual Review of Coast Guard Mission Performance 


                                              Page 11

    Appendix A
    Non-Homeland Security Missions

  Table 2: Coast Guard Reported Non-Homeland Security Missions Performance Goals and Results
   Non-Homeland Security      2001      2002       2003      2004         2005         2006         Performance Measure

                     Goal      85%       85%       85%           85%       86%          86%
 Search/Rescue                                                                                     Percentage of mariners in
                                                                                                    imminent danger saved
                     Actual   84.2%     84.4%     87.7%      86.8%        86.1%       85.27%

                     Result     ×          ×         √             √         √            ×

                              Not met   Not Met    Met           Met        Met       Not met
                                                                                                        Five -year average
                     Goal      2,261     2,098     2,010         1,923     1,831      1,748 or
    Aids to                                                                            Fewer
                                                                                                      number of collisions,
   Navigation                                                                                       allisons, and groundings
                     Actual    2,215     2,098     2,000         1,876     1,825        1,765

                     Result     √          √         √             √         √            ×

                               Met       Met       Met           Met       Met        Not Met
                                                                                                    Limit the number of days
                     Goal       8          2         8             2         2        2 (avg) 8
 Ice Operations                                                                       (severe)
                                                                                                     critical waterways are
                                                                                                   closed due to ice to 2 days
                     Actual     7          7         7             4         0            0        in an average winter and 8
                                                                                                     days in a severe winter
                     Result     √          ×         √             ×         √            √

                               Met      Not Met    Met       Not Met       Met          Met
                                                                                                    Percentage of fishermen
                     Goal      97%       97%       97%           97%       97%          97%
 Living Marine                                                                                      complying with federal
   Resources                                                                                              regulations
                     Actual   98.6%     97.3%     97.1%      96.3%        96.4%        96.6%

                     Result
                                √          √         √             ×         ×            ×

                               Met       Met       Met       Not Met      Not Met     Not Met
                     Goal                                                                            5-year average annual
                               NA         NA       1,543         1,513     1,317        1,280
 Marine Safety                                                                                       fatalities and injuries
                     Actual
                               1,651     1,332     1,307         1,293     1,277        1,400

                     Result
                                                     √             √         √            ×

                               NA         NA       Met           Met       Met        Not Met
                     Goal                                                                           Five -year average number
                                47        45        43            41        20        19 or less       of U.S. Coast Guard
    Marine           Actual                                                                        investigated oil spills greater
 Environmental                 40.3      35.1      29.4          22.1      18.5         16.3           than 100 gallons and
   Protection        Result                                                                        chemical discharges into the
                                √          √         √             √         √            √
                                                                                                   navigable waters of the U.S.
                               Met       Met       Met           Met       Met          Met        per 100 million short tons of
                                                                                                     chemical and oil products
                                                                                                      shipped in U.S. waters
    Subtotal:
                              4 of 5     3 of 5    6 of 6        4 of 6    5 of 6      2 of 6
  Non Homeland
Security Goals Met


                                 Annual Review of Coast Guard Mission Performance 


                                                      Page 12

Appendix A
Non-Homeland Security Missions


                  Non-Homeland Security Mission: Search and Rescue

                  The SAR mission responsibilities include minimizing the loss of life, personal
                  injury, and property loss and damage in the maritime environment by
                  rendering aid to persons in distress and property associated with maritime
                  transportation, fishing and recreational boating.

                  Resource Hours. Resource hour levels for the SAR mission increased in FY
                  2001, decreased during FYs 2002 and 2003, and then slightly increased in FY
                  2004, as illustrated in the chart below. The decrease during FY 2002 and FY
                  2003 was expected due to the responses to the events of September 11, 2001,
                  with more resources directed to homeland security missions, such as PWCS.
                  However, in FY 2005, SAR showed a significant increase, attributable to the
                  Coast Guard’s response to Hurricane Katrina, approaching baseline levels.
                  SAR resource hours dropped 20% again in FY 2006. These current levels are
                  within 28%of baseline levels, the lowest amount of hours in the last six years.
                                                     Search and Rescue Resource Hours

                                      100,000
                     Resource Hours




                                       80,000
                                       60,000
                                       40,000
                                       20,000
                                            0
                                                baseline     2001      2002       2003      2004   2005   2006
                                                                              Fiscal Year

                                      Source: U.S. Coast Guard Reported Data

                  Performance Goals and Results. The SAR mission performance measures
                  are based on the percentage of mariners’ lives saved. In FY 2001 and FY
                  2002 the goal of saving 85% of mariners in distress was not obtained,
                  although it fell just marginally short of the goals, as shown in Table 2.
                  However, since then, the goal was attained in FY 2003 through FY 2005 and
                  fell marginally short in FY 2006. Coast Guard officials stated that a review of
                  SAR data does not indicate a specific reason why the goal was not achieved,
                  but contributing factors include delays in fielding improved SAR capabilities
                  (Rescue 21) and the uncontrollable variables such as weather, location,
                  incident severity, and life saving devices on board, that influence the number
                  and outcome of SAR incidents. Coast Guard Mission Analysis personnel also
                  stated that the Coast Guard is receiving more calls for complex rescue cases

                                       Annual Review of Coast Guard Mission Performance 


                                                           Page 13

Appendix A
Non-Homeland Security Missions


                  because private towboats are assuming what once was considered easy Coast
                  Guard rescues.

                  Non-Homeland Security Mission: Aids-to-Navigation

                  The ATON mission is a means for the Coast Guard to mark the waters of the
                  United States and its territories to assist boaters in navigation and alert them to
                  obstructions and hazards.

                  Resource Hours. Resource hour levels for ATON tracked similar to the SAR
                  mission -- they increased in FY 2001, decreased during FY 2002 and FY
                  2003, increased slightly in FYs 2004 and 2005, and decreased again in FY
                  2006. This resulted in levels falling to approximately six percent short of the
                  baseline level, as illustrated in the chart below.

                                                                 ATON Resource Hours


                                       140,000
                                       120,000
                       ResourceHours




                                       100,000
                                        80,000
                                        60,000
                                        40,000
                                        20,000
                                             0
                                                 Baseline 2001         2002       2003      2004   2005   2006

                                                                              Fiscal Year

                          Source: U.S. Coast Guard Reported Data

                  Performance Goals and Results. The Coast Guard showed progress in the
                  ATON mission for FYs 2001 through 2005; however, the organization did not
                  meet its goal in FY 2006 by less than one percent. This mission, which is
                  measured based on a five-year average number of collisions, allisions, and
                  groundings, has been successful in accomplishing its established goals for five
                  of the last six years. According to performance reports, the five-year average
                  number of distinct collision, allision, and grounding events continues to
                  decline. The Coast Guard attributes its success in this area to reorganization
                  of service delivery processes at every level of the organization. In addition,
                  the waterways management organization as it exists now harmonizes other
                  activities, including vessel traffic services, bridge administration, and
                  domestic ice breaking. The goals for this mission area, however, remain

                                       Annual Review of Coast Guard Mission Performance 


                                                           Page 14

Appendix A
Non-Homeland Security Missions


                          problematic in that they use the number of allisions, collisions, and
                          groundings as a performance indicator, although the majority of marine
                          casualties are related to human error and not ATON. Leading indicators of
                          ATON program performance include the availability of ATON and failure
                          rates among various ATON.

                          Non-Homeland Security Mission: Ice Operations

                          Ice Operations is responsible for icebreaking activities in the Great Lakes and
                          Northeast.6 This facilitates the movement of bulk cargoes carried by regional
                          commercial fleets during the winter months. Domestic icebreaking is
                          normally conducted for SAR and other emergency situations, prevention of
                          flooding caused by ice, and facilitation of navigation.

                          Resource Hours. As illustrated in the chart on the next page, resource hours
                          for Ice Operations steadily increased through FY 2004 and took a sharp
                          decline in FY 2005 and again in FY 2006, bringing it within approximately
                          40% of FY 2004 levels. Hours declined sharply in FY 2005 to 11,398 hours,
                          down 39% from FY 2004, and decreased once again in FY 2006 to 6,877
                          hours. Baseline levels were at 11,935, with FY 2004 levels at 17,552,
                          representing an overall increase of 47%. However, in FY 2005 the mission
                          had a major decline in resource hours, ending in levels almost five percent
                          below baseline levels. These are not unusual fluctuations since this mission is
                          dependent on ice accumulation, which fluctuates on a yearly basis. As of FY
                          2006, resource hours were 43% below baseline levels.




6
 In addition to domestic ice operations, the Coast Guard operates the only U.S.-controlled icebreakers capable of
operations in the polar regions. The Coast Guard operates these cutters and is reimbursed for their operation and
maintenance by the National Science Foundation. Resource hours for polar operations are included in the chart;
however, only Coast Guard-directed domestic ice operations performance goals are measured.

                                     Annual Review of Coast Guard Mission Performance 


                                                         Page 15

Appendix A
Non-Homeland Security Missions



                                                               Ice Operations Resource Hours


                                         20,000




                        Resource Hours
                                         15,000

                                         10,000

                                          5,000

                                              0
                                                  Baseline   2001       2002     2003        2004   2005   2006
                                                                               Fiscal Year

                                Source: U.S. Coast Guard Reported Data

                  Performance Goals and Results. The success of the Ice Operations mission
                  is measured by days of waterway closures: no more than eight days of closure
                  for winters considered severe and two days of closure for winters considered
                  average. The Coast Guard met the established goals in FY 2001 and FY 2003
                  (both severe winters), and again in FY 2005 and 2006 (average winter), as
                  shown in Table 2. The goals were not attained in FY 2002 and FY 2004
                  (average winters). Since the Coast Guard achieved its goal in both severe and
                  average winters, it appears that the type of winter is not the deciding factor in
                  whether the Coast Guard meets its goals. There were no closures of critical
                  waterways recorded in FY 2006 due to ice.

                  Non-Homeland Security Mission: Living Marine Resources

                  LMR is responsible for federal LMR regulations and enforcing domestic
                  fisheries laws.

                  Resource Hours. After the events of September 11, 2001, resource hour
                  levels for LMR showed a significant decrease in FY 2002. In FY 2003, the
                  levels began to increase, but still were 26% below baseline levels.

                  The resource hours then increased again in FYs 2004 through FY 2006,
                  resulting in levels within nine percent of baseline levels, after a low of almost
                  38% below baseline levels during FY 2002, as illustrated in the chart on the
                  next page.



                                         Annual Review of Coast Guard Mission Performance 


                                                             Page 16

Appendix A
Non-Homeland Security Missions



                                                                  LMR Re source Hours

                                        120,000

                                        100,000




                       Resource Hours
                                         80,000

                                         60,000

                                         40,000

                                         20,000

                                              0
                                                  Baseline    2001      2002       2003        2004   2005   2006

                                                                               Fiscal Ye a r

                                        Source: U.S. Coast Guard Reported Data

                  Performance Goals and Results. The LMR mission measures its successes
                  by determining the percentage of fishermen complying with domestic federal
                  fisheries regulations. The goals set for this mission were met in FYs 2001,
                  2002, and 2003, but were not achieved in FYs 2004 through 2006, as depicted
                  in Table 2. The Coast Guard fell short of its goal by 0.4% in FY 2006. There
                  has been an overall decline in actual compliance since FY 2001. Per Coast
                  Guard Officials, complex, ever changing fisheries regulations in the northeast,
                  particularly when combined with days at sea restrictions, produced strong
                  incentives to violate the regulations, contributing to a steady increase in
                  violations. Several years of poor economic conditions in the shrimp fisheries
                  and effects of the 2005 hurricane season also created a strong incentive for the
                  fishing industry to disregard regulations.

                  Non-Homeland Security Mission: Marine Safety

                  Marine Safety is responsible for providing safe, efficient, and environmentally
                  sound waterways for the myriad of commercial and recreational users.




                                         Annual Review of Coast Guard Mission Performance 


                                                             Page 17

Appendix A
Non-Homeland Security Missions


                  Resource Hours. We analyzed resource hour data for FYs 2005 and 2006
                  because the Coast Guard did not report hours for this mission prior to 2005.
                  The Marine Safety mission is personnel intensive and is largely carried out
                  without using Coast Guard aircraft, cutter, and boat assets.

                                                            M arine Safe ty Re source Hours

                                      80000

                                      70000

                                      60000
                     Resource Hours



                                      50000

                                      40000

                                      30000

                                      20000

                                      10000

                                          0
                                              Baseline     2001         2002       2003       2004   2005   2006

                                                                               Fiscal Ye ar

                                       Source: U.S. Coast Guard Reported Data

                  Performance Goals and Results. The Coast Guard measures the success of
                  the Marine Safety mission by comparing five-year average annual fatalities
                  and injuries. The Marine Safety mission accomplished its goals in FY 2003
                  through FY 2005, but did not meet its goal in FY 2006, as shown in Table 2.
                  The Coast Guard did not establish goals in FYs 2001 and 2002. The Coast
                  Guard reported it ambitiously set its goal of no more than 1,280 deaths or
                  injuries for FY 2006 (actual 1,400) based in part on anticipated towing vessel
                  regulations that were not yet implemented. Completion of these regulations,
                  as well as proposed changes to requirements for safety/survival systems and a
                  requirement that fishing vessels have a current safety decal, are expected to
                  favorably affect future results. The Coast Guard also is now reporting
                  recreational injuries and deaths, as reported by States. According to Coast
                  Guard officials, this also has contributed to why the Coast Guard has not met
                  its goal.

                  Non-Homeland Security Mission: Marine Environmental Protection

                  The Marine Environmental Protection is to prevent the introduction of
                  invasive species, stop unauthorized ocean dumping, and protect against
                  accidental oil and chemical spills.




                                         Annual Review of Coast Guard Mission Performance 


                                                             Page 18

Appendix A
Non-Homeland Security Missions


                  Resource Hours. We only analyzed resource hour data for FYs 2005 and
                  2006 for the marine environmental protection mission because the Coast
                  Guard did not report resource hours for previous years. Traditionally, this
                  mission is personnel intensive and is largely conducted without using Coast
                  Guard aircraft, cutter, and boat assets.

                                                         Marine Environmental Protection Resource Hours


                                       6000


                                       5000


                                       4000
                      Resource Hours




                                       3000


                                       2000


                                       1000


                                         0
                                              Baseline      2001       2002       2003        2004        2005   2006
                                                                               Fiscal Year


                                       Source: U.S. Coast Guard Reported Data

                  Performance Goals and Results. Marine Environmental Protection’s
                  successes are measured by the five-year average annual oil spills and chemical
                  discharges. The Coast Guard has been successful in reducing the number of
                  incidents year to year, thus accomplishing its goals for the entire five-year
                  period. As depicted in Table 2, the mission has been so successful that the
                  Coast Guard reduced its goal by over 50% in FY 2005 (from 41% to 20 %),
                  which it still met. The Coast Guard also met its goal in FY 2006, reducing its
                  goal from a five-year average of 20 oil spills and chemical discharges to 19 or
                  less. The Coast Guard attributes the decrease to many initiatives including a
                  more thorough assessment of the skills of merchant mariners employed as
                  members of a ship’s engineering watch, as well as a more uniform policy for
                  ensuring compliance with the international safety management code that
                  governs routine ship operations such as cargo transfers and ship fueling.




                                         Annual Review of Coast Guard Mission Performance 


                                                               Page 19

Appendix B
Homeland Security Missions


      Homeland Security Resource Hours as Reported by the Coast Guard

                   Overall total resource hours for homeland security missions increased through
                   FY 2004, then slightly decreased in FY 2005, and again in FY 2006.
                   However, the FY 2006 level is still significantly (231%) above baseline
                   levels, as depicted in the chart below.

                                                                            H o m e la n d S e c u rity R e so u rc e H o u rs


                                           5 0 0 ,0 0 0

                                           4 5 0 ,0 0 0

                                           4 0 0 ,0 0 0

                                           3 5 0 ,0 0 0
                         Resource Hours




                                           3 0 0 ,0 0 0

                                           2 5 0 ,0 0 0

                                           2 0 0 ,0 0 0

                                           1 5 0 ,0 0 0

                                           1 0 0 ,0 0 0

                                            5 0 ,0 0 0

                                                     0
                                                          B a s e lin e   2001            2002            2003            2004   2005   2006
                                                                                                     F isc a l Ye a r


                                          Source: U.S. Coast Guard Reported Data

                   Resource hours for some individual homeland security missions increased
                   while others decreased. When compared to the baseline, Ports, Waterways,
                   and Costal Security (PWCS); Defense Readiness; and Undocumented Migrant
                   Interdiction showed significant increases while Drug Interdiction and Other
                   Law Enforcement showed decreases. Specifically, through FY 2006, PWCS,
                   Defense Readiness, and Undocumented Migrant Interdiction increased a total
                   of 1,023%, 602%, and 129%, respectively, while Drug Interdiction and Other
                   Law Enforcement showed decreases of 23% and 36%, respectively.

                   Homeland Security Performance Goals and Results. The Coast Guard
                   continues to experience difficulty in meeting its homeland security
                   performance goals. The Coast Guard was not successful in meeting some of
                   its goals for its homeland security missions, as illustrated in Table 3. The
                   Coast Guard did not meet its goal for Defense Readiness for any of the six
                   years surveyed. Additionally, the Coast Guard failed to meet its
                   Undocumented Migrant Interdiction goals in four out of the six years
                   surveyed. The Coast Guard achieved its goals in FY 2002 and FY 2004 for
                   this mission. For Drug Interdiction and Other Law Enforcement, the Coast
                   Guard achieved its goals in three of the six years reviewed. For PWCS, the
                   Coast Guard did not establish a goal until FY 2006 and met its goal that year.


                                           Annual Review of Coast Guard Mission Performance 


                                                                          Page 20

      Appendix B
      Homeland Security Missions


                            Performance goals and results for the five individual homeland security
                            missions, from FY 2001 through FY 2006, are summarized in Table 3.

       Table 3: Coast Guard Reported Homeland Security Missions Performance Goals and Results

Homeland Security                2001          2002       2003         2004       2005        2006         Performance Measure
                       Goal
                                No             No           No      No           Measure       14%
Ports, Waterways, &             Measure       Measure     Measure   Measure      Baselined
                                                                                                             Reduction in the Coast
  Coastal Security     Actual                                                                            Guard PWCS Risk Index that
                                                                                   3.4%        18%       is attributable to Coast Guard
                                                                                                               combating maritime
                       Result                                                                                   terrorism activities
                                                                                                √

                                                                                               Met
                       Goal
                                  15%          18.7%      20.7%         15%        19%         22%
 Drug Interdiction                                                                                       Removal rate for cocaine that
                       Actual                                                                               is shipped via non-
                                 11.7%         10.6%      16.3%        30.7%      27.3%        22%       commercial maritime means
                       Result
                                    ×            ×           ×            √         √           √

                                Not Met       Not Met     Not Met       Met        Met       Estimated
                                                                                               -Met
                       Goal
                                  87%           87%        87%          87%        88%         89%       Percentage of undocumented
  Undocumented
                       Actual                                                                             migrants who attempted to
Migrant Interdiction
                                 82.5%         88.3%      85.3%        87.1%      85.5%       <89%        enter the U.S. via maritime
                                                                                                         routes that are interdicted or
                       Result
                                    ×            √           ×            √         ×           ×
                                                                                                                    deterred

                                Not Met         Met       Not Met       Met      Not Met     Estimated
                                                                                             -Not Met
                       Goal
                                  100%         100%        100%         100%      100%        100%       Percentage of time that Coast
 Defense Readiness
                       Actual                                                                            Guard assets included in the
                                  67%           70%        78%          76%        69%         62%         Combatant Commander
                                                                                                          Operational Plans are ready
                       Result
                                    ×            ×           ×            ×         ×           ×
                                                                                                         at a Status of Resources and
                                                                                                          Training System rating of 2
                                Not Met       Not Met     Not Met      Not Met   Not Met     Not Met                or better
                       Goal
                                   202          202         202          202       200         199
     Other Law                                                                                            Number of incursions into
    Enforcement        Actual                                                                             U.S. Exclusive Economic
                                   212          250         152          247       171         164                 Zone
                       Result
                                    ×            ×           √            ×         √           √


                                Not Met       Not Met      Met         Not Met     Met          Met
Subtotal: Homeland
                                  0 of 4       1 of 4      1 of 4       2 of 4    2 of 4      3 of 5
Security Goals Met


                                        Annual Review of Coast Guard Mission Performance 


                                                            Page 21

Appendix B
Homeland Security Missions


                             Homeland Security Mission: Ports, Waterways, and Coastal Security

                            The Ports, Waterways, and Coastal Security (PWCS) mission is to prevent
                            and protect against maritime security threats, reducing America’s
                            vulnerability to those threats, and minimizing the adverse consequences of
                            maritime security incidents that do occur.

                            Resource Hours. Resource hours for PWCS rapidly increased in response to
                            the events of September 11, 2001, resulting in a 1,220% increase over
                            baseline levels by FY 2003.7 In FY 2004, the levels increased slightly by four
                            percent over FY 2003 levels, decreased by three percent in FY 2005, and
                            decreased again in FY 2006. Even with the decrease, the mission still showed
                            an increase in resources at a level 1,023%, or 11 times greater than the
                            baseline. The chart below shows this rapid increase in resource hours. This is
                            by far the largest user of resource hours of any Coast Guard mission area.

                                                                                 PWCS Resource Hours


                                                     300,000
                                                     250,000
                                    Resource Hours




                                                     200,000
                                                     150,000
                                                     100,000
                                                      50,000
                                                           0
                                                               Baseline   2001       2002     2003        2004   2005   2006

                                                                                            Fiscal Year


                                    Source: U.S. Coast Guard Reported Data

                            Performance Goals and Results. Prior to FY 2005, the Coast Guard had not
                            established performance goals for the PWCS mission. In FY 2005, the Coast
                            Guard established a new risk-reduction performance measure to demonstrate
                            PWCS performance. This risk-based performance measure involves the
                            scoring of high-consequence maritime terrorist attack scenarios with respect
                            to threat, vulnerability, and consequence. The Coast Guard met its goal for
                            FY 2006 for this mission. The Coast Guard attributes this success to new or
                            enhanced initiatives aimed at improved maritime risk reduction including: a

7
    Prior to FY 2001 and the subsequent formal establishment of the PWCS program, resource hours were collected under
     a variety of categories that were used to establish the baseline.


                                              Annual Review of Coast Guard Mission Performance 


                                                                      Page 22

Appendix B
Homeland Security Missions


                           comprehensive update to Operation Neptune Shield;8 verification of 78% of
                           the previously uninspected vessel fleet for security compliance; operational
                           testing of explosive screening technologies for ferries; enhancement to the
                           Maritime Law Enforcement Academy facility and curriculum; promulgation
                           of Maritime Sentinel;9 convening of the National Maritime Recovery
                           Symposium;10 and implementation of the Maritime Security Risk Analysis
                           Model enabling local, regional, and national assessment of infrastructure-
                           focused security risk.

                           Homeland Security Mission: Drug Interdiction

                           The Coast Guard’s Drug Interdiction mission is key to combating the flow of
                           illegal drugs to the United States. The Coast Guard’s mission is to reduce the
                           supply of drugs from the source by denying smugglers the use of air and
                           maritime routes in the Transit Zone, a six million square mile area, including
                           the Caribbean, Gulf of Mexico, and Eastern Pacific. The Coast Guard is the
                           lead federal agency for maritime drug interdiction and shares responsibility
                           for air interdiction with U.S. Customs and Border Protection.

                           Resource Hours. The Drug Interdiction mission area had a significant
                           reduction in resource hours through FY 2003, resulting in a 43% decrease
                           from baseline levels. However, the number of resource hours showed a
                           moderate increase of 11% from FY 2003 to FY 2004 and a slight 3% decrease
                           in FY 2005, followed by a significant increase of 26% in FY 2006, resulting
                           in a net decrease of 23% below baseline levels. These changes are shown in
                           the chart on the next page.




8
  Operation Neptune Shield is the Coast Guard’s internal plan to identify, prevent, and protect facility and vessel 

operations with the potential for material consequences from a terrorist attack. 

9
  This is Coast Guard’s strategic plan to combat maritime terrorism.

10
   The National Maritime Recovery Symposium aims to identify issues and alternative solutions to improve federal 

government and industry plans supporting national recovery efforts after a "national transportation security incident."

The symposium, comprised of members from DHS and the Department of Transportation, was held at the Maritime 

Institute of Technology and Graduate Studies in Linthicum, Maryland in August 2006. 


                                     Annual Review of Coast Guard Mission Performance 


                                                          Page 23

Appendix B
Homeland Security Missions




                                                           Ille ga l Drug Inte rdiction Re source Hours


                                           140,000
                                           120,000




                         Resource Hours
                                           100,000
                                            80,000
                                            60,000
                                            40,000
                                            20,000
                                                 0
                                                     Baseline     2001     2002       2003      2004      2005   2006


                                                                                  Fiscal Year


                               Source: U.S. Coast Guard Reported Data

                   Performance Goals and Results. From FY 2001 through FY 2003, Drug
                   Interdiction mission success was measured by the percentage of cocaine
                   seizures. Starting in FY 2004, performance was measured by the cocaine
                   removal rate. The mission area failed to accomplish its goal in FYs 2001
                   through 2003, but did accomplish its goal in FY 2004 through 2006, as shown
                   in Table 3. The Coast Guard considers several external factors, such as
                   intelligence and interagency cooperation, as vital to the Coast Guard’s Drug
                   Interdiction mission. These efforts enable Coast Guard commanders to best
                   position assets for anticipated interdictions.

                   Homeland Security Mission: Undocumented Migrant Interdiction

                   The Undocumented Migrant Interdiction mission responsibilities consist of
                   enforcing immigration laws at sea. To fulfill its responsibilities, the Coast
                   Guard conducts patrols and coordinates with other federal agencies and
                   foreign countries to interdict undocumented migrants at sea, denying them
                   entry via maritime routes to the United States, its territories, and its
                   possessions.

                   Resource Hours. As illustrated in the chart below, there was a moderate
                   decrease in Undocumented Migrant Interdiction resource hours in FY 2001,
                   but resource hours began to increase in FY 2002. FY 2003 saw a significant
                   81% increase in resource hours, and a significant increase from FY 2003
                   through FY 2004 by an additional 40%. This resulted in an overall increase of
                   153% in FY 2004 from the baseline. However, resources were down slightly
                   for FY 2005 and decreased again in FY 2006, but were still above baseline

                                          Annual Review of Coast Guard Mission Performance 


                                                                Page 24

Appendix B
Homeland Security Missions


                   levels by 129%. Coast Guard officials attributed the decline of available 110’
                   cutters and the November 2006 removal of eight 123’cutters as affecting FY
                   2006 missions.

                                                       Undocumented Migrant Interdiction Resource Hours




                                       80,000
                                       70,000
                      Resource Hours


                                       60,000
                                       50,000
                                       40,000
                                       30,000
                                       20,000
                                       10,000
                                            0
                                                Baseline   2001       2002      2003        2004     2005   2006
                                                                              Fiscal Year


                                         Source: U.S. Coast Guard Reported Data

                   Performance Goals and Results. The Undocumented Migrant Interdiction
                   mission successes are measured by the percentage of migrants interdicted or
                   deterred, based on intelligence estimates of the number of migrants who
                   would attempt entrance, via maritime routes, into the United States if there
                   were no enforcement. The mission area accomplished its goals in FY 2002
                   and FY 2004 but failed to do so in FYs 2001, 2003, 2005, and 2006, as
                   depicted in Table 3.

                   The Coast Guard reported it will implement an improved performance
                   measurement in FY 2007 that will be based on an independent program
                   evaluation.

                   Homeland Security Mission: Defense Readiness

                   The Defense Readiness mission is to provide essential capabilities to support
                   national security and national military strategies. Resource hours primarily
                   depict the execution of these defense missions, while the performance goals
                   and results measure the Coast Guard’s readiness to perform the mission.

                   Resource Hours. Resource hours for Defense Readiness increased through
                   FY 2006. Resource hour levels increased by 516% through FY 2003, slightly
                   decreased by 6% from FY 2003 to FY 2004, and then increased again in FY
                   2005 and FY 2006 to the highest level for Defense Readiness, bringing the



                                          Annual Review of Coast Guard Mission Performance 


                                                              Page 25

Appendix B
Homeland Security Missions


                   total number of hours to more than seven times the baseline levels. These
                   changes in resource hours are shown in the chart below.

                                                       Defense Readiness Resource Hours

                                          50,000



                         Resource Hours
                                          40,000
                                          30,000
                                          20,000
                                          10,000
                                              0
                                                   Baseline 2001      2002      2003       2004   2005   2006


                                                                             Fiscal Year

                              Source: U.S. Coast Guard Reported Data

                   Performance Goals and Results. Success of the Defense Readiness mission
                   is measured by the percentage of time that Coast Guard assets included in the
                   Combatant Commander Operational Plans are ready with a Status of
                   Resources and Training System rating of 2 or better. The Coast Guard failed
                   to meet the established goals for this mission in FY 2001 through FY 2006.
                   The Coast Guard primarily attributes the shortfall in meeting its performance
                   target to an aging cutter fleet and limited annual reserve training time that
                   precluded the rapid accomplishment of both personnel and unit training
                   requirements for Port Security Units. FY 2006 also marked the Coast Guard’s
                   assumption of duties associated with air intercept support for defense of the
                   National Capital Region.

                   Homeland Security Mission: Other Law Enforcement

                   Living Marine Resources covers foreign fishing incursions into the United
                   States Exclusive Economic Zone (EEZ). The DHS Other Law Enforcement
                   mission encompasses law enforcement operations that are not related to
                   foreign fishing incursions.

                   Resource Hours. The resource hours for the Other Law Enforcement mission
                   have fluctuated between the baseline and FY 2006. The mission performance
                   showed a decrease through FY 2002, an increase in FY 2003, a decrease in
                   FY 2004, an increase in FY 2005, and finally a decrease in 2006, resulting in a
                   level 36% below the baseline levels. The chart below depicts these
                   fluctuations.

                                      Annual Review of Coast Guard Mission Performance 


                                                           Page 26

Appendix B
Homeland Security Missions



                                                            Othe r La w Enforce me nt Re source Hours


                                        9000

                                        8000

                                        7000

                                        6000


                       Resource Hours
                                        5000

                                        4000

                                        3000

                                        2000

                                        1000

                                           0
                                               Baseline    2001       2002         2003        2004     2005   2006
                                                                               Fiscal Yea r


                                        Source: U.S. Coast Guard Reported Data

                   Performance Goals and Results. The Coast Guard measures the Other Law
                   Enforcement mission success in limiting the number of foreign fishing vessel
                   incursions into the EEZ. The Coast Guard failed to accomplish this mission’s
                   goal in FYs 2001, 2002, and 2004; but reached its goal in FYs 2003, 2005,
                   and 2006. The Coast Guard attributes much of its success in this program to
                   its good working relationship it has developed with Mexican fisheries
                   enforcement personnel in recent years. A majority of the incursions are made
                   on the Gulf of Mexico. The Coast Guard continued its efforts, with increased
                   success in FY 2006 to monitor, detect, and interdict foreign fishing vessel
                   incursions into the EEZs of the Western Central Pacific and along the
                   maritime boundary line with Russia in the Bearing Sea.




                                          Annual Review of Coast Guard Mission Performance 


                                                              Page 27

Appendix C
Purpose, Scope, and Methodology


                   Section 888(f)(1) of the Homeland Security Act of 2002 directs the Inspector
                   General to conduct an annual assessment of the Coast Guard’s performance of
                   all its missions, with a particular emphasis on non-homeland security
                   missions. The objective of this review was to determine the extent that
                   resource hours and performance results and targets for each Coast Guard
                   mission have changed from prior to September 11, 2001, through FY 2006.

                   We reviewed the following GAO reports and testimonies: (1) Coast Guard
                   Non-Homeland Security Performance Measures Are Generally Sound, but
                   Opportunities for Improvement Exist, GAO-06-816; (2) Coast Guard,
                   Observations on Agency Performance, Operations, and Future Challenges,
                   GAO-06-448T; and (3) Coast Guard Condition of Some Aids-to-Navigation
                   and Domestic Icebreaking Vessels Has Declined; Effect on Mission
                   Performance Appears Mixed, GAO-06-979.

                   We analyzed the total number of resource hours reported by the Coast Guard
                   prior to September 11, 2001, through FY 2006, and obtained the FY 2006
                   PTFMC for its cutters, icebreakers, patrol boats tugs, and buoy tenders. We
                   did not attempt to verify the resource hour data or the percentage of time fully
                   mission capable reported by the Coast Guard, nor did we attempt to validate
                   whether the Coast Guard had accurately classified such data. We assessed
                   total resource hours for the 11 individual Coast Guard missions to identify the
                   changes in each.

                   We analyzed performance targets and goals to determine whether the goals for
                   each of the Coast Guard’s missions had been accomplished. We obtained
                   information on performance targets and goals from the Department of
                   Homeland Security FY 2006 Performance and Accountability Report, the FY
                   2008 Coast Guard Budget in Brief, and specific updates provided by the Coast
                   Guard. Lastly, we held discussions with Coast Guard mission analysis
                   personnel to obtain information on why the Coast Guard did not meet its
                   performance targets for certain missions.

                   We conducted our review between October 2006 and March 2007 under the
                   authority of the Inspector General Act of 1978, as amended, and according to
                   the Quality Standards for Inspections, issued by the Council of the Inspectors
                   General on Integrity and Efficiency (CIGIE).

                   We would like to extend our appreciation for the cooperation and courtesies
                   extended by the Coast Guard to our staff during the review.




                           Annual Review of Coast Guard Mission Performance 


                                               Page 28

Appendix D
Management Comments to the Draft Report




                         Annual Review of Coast Guard Mission Performance 


                                             Page 29

Appendix D
Management Comments to the Draft Report




                         Annual Review of Coast Guard Mission Performance 


                                             Page 30

Appendix D
Management Comments to the Draft Report




                         Annual Review of Coast Guard Mission Performance 


                                             Page 31

Appendix E
Major Contributors to this Report




                Washington, DC Office
                Richard T. Johnson, Director
                USCG and Maritime Security Operations Division

                Boston, MA Office
                Maureen Duddy, Audit Manager
                Brian Lynch, Auditor in Charge




                           Annual Review of Coast Guard Mission Performance 


                                               Page 32

Appendix F
Report Distribution


                      Department of Homeland Security

                      Secretary
                      Deputy Secretary
                      Chief of Staff
                      Deputy Chief of Staff
                      General Counsel
                      Executive Secretary
                      Director, GAO/OIG Audit Liaison
                      Assistant Secretary for Office of Policy
                      Assistant Secretary for Office of Public Affairs
                      Assistant Secretary for Office of Legislative Affairs
                      USCG Audit Liaison

                      Office of Management and Budget

                      Chief, Homeland Security Branch
                      DHS OIG Budget Examiner

                      Congress

                      Congressional Oversight and Appropriations Committees, as appropriate




                              Annual Review of Coast Guard Mission Performance 


                                                  Page 33

Appendix E
Report Distribution




   Additional Information and Copies

   To obtain additional copies of this report, call the Office of Inspector General (OIG)
   at (202) 254-4199, fax your request to (202) 254-4285, or visit the OIG web site at
   www.dhs.gov/oig.

   OIG Hotline

   To report alleged fraud, waste, abuse or mismanagement, or any kind of criminal or
   noncriminial misconduct relative to department programs or operations:

      •    Call our Hotline at 1-800-323-8603;
      •    Fax the complaint directly to us at (202) 254-4292;
      •    Email us at DHSOIGHOTLINE@dhs.gov; or
      •	   Write to us at:
              DHS Office of Inspector General/MAIL STOP 2600 Attention:
              Office of Investigations – Hotline, 245 Murray Drive, SW, Building 410
              Washington, DC 20528

   The OIG seeks to protect the identity of each writer and caller.
